        Best Practices
              of
     Section 7(a) Lenders

         November 1996




   Inspection Report
          No. 96-11-001




    Office of Inspector General
U.S. Small Business Administration
November 12, 1996

TO:            Philip Lader
               Administrator

THROUGH: James F. Hoobler
         Inspector General

FROM:          Tim Cross
               Assistant Inspector General
                for Inspection and Evaluation

SUBJECT:       Inspection of Best Practices of Section 7(a) Lenders

      We are pleased to submit our inspection report on the Best Practices of Section 7(a)
Lenders. It focuses on the credit management procedures identified by the nine successful
lenders in our case studies as the most effective means for controlling risk. Although not
all the procedures may be applicable to every 7(a) lender, we believe that by encouraging
such practices, SBA will be able to improve the effectiveness of its lending partners while
keeping loan losses to a minimum.

     Specifically, the practices may be useful as a guide for lenders who are new to the
program or who need to improve their credit controls. We also suggest that SBA take the
practices into account when considering candidates for the Preferred Lenders Program
(PLP) or conducting reviews of existing PLP lenders. Among other things, we found that
the successful lenders in our sample:

      Rely more on evaluating an individual borrower’s situation than o n
      automated screening methods such as credit s coring. Although some of the
      lenders use automated credit scoring for consumer loans, eight of the nine avoid
      it for small business loans largely because they do not think there is a strong
      correlation between a borrower’s past credit history, as measured by the score,
      and how a small business loan will perform. In most instances, the lenders use
      a more personal approach to evaluate businesses on a case-by-case basis.
     Generally avoid using external loan packagers. Most of the lenders in our
     sample tend to avoid third-party loan packagers who prepare prospective
     borrowers’ 7(a) loan applications for a fee. Although one lender noted that
     packagers have expedited its loan approval process, others stated that packagers
     often submitted substandard loans and/or insufficient documentation because,
     in part, they receive their fees regardless of the quality of the applications.

     Require the borrower to pledge both personal and business assets a s
     collateral, despite the availability of the SBA guarantee. The guarantee may
     be used by lenders to augment collateral, but none of the lenders in our sample
     appear to use it as a full substitute for collateral. Moreover, they all require
     pledges of personal assets, such as a borrower’s residence or securities, if they
     deem it necessary.

     Centralize final lending decisi ons to ensure consistency and control. Both
     large and small lenders require at least one official other than the originating loan
     officer to approve SBA loans. This helps standardize a lender’s credit decisions.

     Assign risk ratings to new loans and periodically reassess them throug h
     the life of the loans. In a risk rating system, a new loan is assigned a numerical
     value denoting its risk level; the number may be revised based on the borrower’s
     payment record or other factors. This differs from credit scoring, which is
     usually used to screen applicants before issuing loans.

     Proactively watch for warning signs of future loan repayment problems.
     Rather than waiting for loans to become past due, some lenders watch for
     indications of potential collection problems, like the borrower’s failure to renew
     hazard insurance or decreased profits from the previous year’s level.

     Identify past due loans early and initiate vigorous col lection efforts. Quick
     action at the first sign of delinquency can reduce the need for time-consuming
     collection actions and enable the lender to adjust the loan terms or resolve other
     problems at an early stage.

      In his comments, the Associate Administrator for Financial Assistance (AA/FA) stated
that some of the lenders’ statements indeed described best practices in the industry. He
expressed concern, however, over the findings on external loan packagers and on collateral.
He noted that packagers serve a worthwhile purpose and that the practice of requiring
borrowers to pledge personal and business assets whenever collateral is needed may not be
the best practice in terms of carrying out Congress’ and SBA’s intent.
      In response, the OIG inspectors noted that the lenders’ comments applied to full-time
packagers, rather than to any attorney or accountant who occasionally provides loan
assistance to clients. We also pointed out the extent of loan packager fraud, as evidenced
by recent criminal investigations on packager-prepared loan applications and SBA’s
formation of a committee in 1995 to examine the packager problem. On the issue of
obtaining collateral, the OIG viewed this practice not as detrimental to carrying out the
intent of the 7(a) program but, rather, as just one of many considerations required in
making a loan. The AA/FA’s comments and the OIG response appear in Appendices D
and E, respectively.

      Although our report contains no formal recommendations, we suggest that the Agency
incorporate these best practices into its guidance for new lenders and its monitoring criteria
for existing lenders. The OIG appreciates the excellent cooperation we received from SBA
staff and from the lenders used as case studies and would be happy to discuss our findings
with you at your convenience.



Attachment
                              TABLE OF CONTENTS


                                                                         Page

EXECUTIVE SUMMARY                                                          v

BACKGROUND                                                                 1

OBJECTIVES, SCOPE, AND METHODOLOGY                                         3

FINDINGS

    Practices of Successful 7(a) Lenders

   1.      Successful lenders foster a long-term and comprehensive          5
           relationship with their borrowers that extends beyond the
           scope of an SBA loan.

   2.      Successful lenders rely more on evaluating an individual            6
           borrower’s situation than on automated screening methods
           such as credit scoring.

   3.      Successful lenders generally avoid the use of external              7
           loan packagers.

   4.      Successful lenders require the borrower to demonstrate           8
           relevant experience in the type of business to which credit
           is to be extended.

   5.      Successful lenders require the borrower to pledge both              9
           personal and business assets as collateral, despite the
           availability of the SBA guarantee.

   6.      Successful lenders centralize final lending decisions to        10
           ensure consistency and control.

   7.      Successful lenders hold the loan officers accountable for       11
           problems in the loans they originate.


                                           i
                                                                        Page

   8.   Successful lenders emphasize quality loan origination             11
        over monitoring.

   9.   Successful lenders assign risk ratings to new loans and           12
         periodically reassess them through the life of the loans.

  10.   Successful lenders proactively watch for warning signs of         13
        future loan repayment problems.

  11.   Successful lenders identify past due loans early and initiate     14
         vigorous collection efforts.

  12.   Successful lenders emphasize working out a problem loan to        14
        avoid liquidation.


APPENDICES

   A    Common Characteristics and Concerns of SBA Lenders                     17

   B    Table 1: Profile of Lenders Selected for Review                  19

   C    SBA’s Ongoing 7(a) Initiatives                                   21

   D    Office of Financial Assistance Comments                          23

   E    OIG Response to Office of Financial Assistance Comments           29

   F    Contributors to This Report                                      31




                                         ii
                     ABBREVIATIONS


CFO      Chief Financial Officer
CLP      Certified Lenders Program
CY       Calendar Year
EIS      Electronic Information System
FDIC     Federal Deposit Insurance Corporation
FY       Fiscal Year
LowDoc   Low Documentation Loan Program
OCC      Office of the Comptroller of the Currency
OFA      Office of Financial Assistance
OIG      Office of Inspector General
OIRM     Office of Information Resources Management
PLP      Preferred Lenders Program
SBA      Small Business Administration
SBLC            Small Business Lending Company




                             iii
                              EXECUTIVE SUMMARY


                               Purpose and Background

Under Section 7(a) of the Small Business Act, the Small Business Administration (SBA)
guarantees up to 90 percent of loans made by private lenders, i.e., banks and nonbank
lenders such as Small Business Lending Companies (SBLCs), to small business borrowers
who cannot obtain credit elsewhere on reasonable terms and conditions. In fulfillment of
its guarantee to lenders, SBA currently purchases between $400 million and $450 million
of defaulted 7(a) loans annually, with annual purchases projected by SBA to double by the
year 1999 if loan demand forecasts are realized. Although subsequent recoveries reduce
the amount of actual losses, SBA officials anticipate that the dramatic increase in
the number of 7(a) guaranteed loans combined with both recent and anticipate d
reductions in staffing could hamper the m anagement of the portfolio. Accordingly,
the Agency will need to rely even more hea vily on its lenders to keep losses on loans
to a minimum. This inspection seeks to identify the best credit risk management practices
of a cross-section of successful lenders for SBA management’s consideration as guidance
for 7(a) lenders.

The Office of Inspector General (OIG) initiated this study to help SBA management
identify and encourage good program operations. The objective was to identify practices
that could improve 7(a) lenders’ credit risk management systems and, conversely, help
SBA identify lenders likely to pose a higher risk of loan defaults. By recognizing the best
practices of some of its more successful lenders, SBA can encourage or require that those
same practices be adopted by lenders whom the Agency believes need to improve their
management of SBA-guaranteed loans.

The 7(a) program has grown dramatically over the last few years, with approved 7(a) loans
increasing from $5.9 billion in Fiscal Year (FY) 1992 to $7.7 billion in FY 1996, although
the Agency had received appropriations for a $10.8 billion program for that year. An
appropriations level of $7.7 billion has been approved for FY 1997. Even if the percentage
of nonperforming loans SBA purchases from lenders remains constant or declines, the
Agency may face significant dollar losses simply because of increases in the 7(a)
program’s size.

In addition, the number of SBA employees (excluding disaster assistance staff, most of
whom are employed on a temporary basis) has decreased nearly 26 percent--from 4,120 in
FY 1990 to 3,054 in FY 1996. The lending industry has also changed, with the number
of commercial banks declining from 12,778 in 1990 to 10,515 in 1995. Thus, a resource-


                                            v
constrained SBA must balance the seemingly conflicting goals of guaranteeing loans that
lenders otherwise might not make with keeping purchases of defaulted loans to a
minimum--all during a time of major lending industry change. A key to resolving this
issue is to determine what practices SBA’s lending partners could most effectively use to
minimize losses, while serving the potentially higher risk borrowers that the 7(a) program
was established to serve.

To identify best practices, we researched modern credit analysis and monitoring techniques
and obtained relevant financial data from SBA and outside sources. With the assistance of
SBA officials, we selected nine active and successful 7(a) lenders that varied by size,
geographic location, small business lending focus, and type (bank or nonbank lender). We
then visited each lender and reviewed the policies and procedures that they deemed
essential for sound credit initiation, analysis, and monitoring.

For the purpose of this report, the term “best practices” refers to those credit management
practices identified as the most effective for controlling risk. The term does not imply that
the practices represent an exhaustive list of all effective practices. Because this study’s
conclusions are based on case studies of nine lenders, they cannot be projected to the
universe of 7(a) lenders; the selected lenders are a cross-section (not a representative
sample) of 7(a) lenders. We believe, however, that the best practices may prove to be a
useful guide for those lenders who either need to develop procedures for the management
of their SBA loan portfolio or wish to improve their controls over credit systems.


                                          Findings

Based on case studies of nine successful lenders, selected with the assistance of SBA
officials, the following practices have been identified as effective in controlling credit risk:

1.   Successful lenders foster a long-term and comprehensive relationship wit h
     their borrowers that extends beyond the scope of an SBA loan. Most of the
     lenders we interviewed--banks and nonbank lenders alike--strive to establish lasting
     relationships with their customers and service all of their financial needs. As a result,
     lenders learn more about borrowers’ financial status and profit from selling diverse
     services, while borrowers gain an enduring source of assistance as well as credit.
     Moreover, as lenders find their small business portfolios becoming more profitable,
     they become more likely to satisfy the SBA objective of providing more loans to
     those in the small business community who cannot obtain credit elsewhere on
     reasonable terms and conditions.



                                               vi
2.   Successful lenders rely more on evaluating an individual borrower’s situation
     than on automated screening methods such as credit scoring. Credit scoring,
     which uses computer models to measure and predict the creditworthiness of potential
     borrowers, is designed to improve the efficiency of the loan origination process.
     Although credit scoring traditionally has been limited primarily to consumer credit
     lenders who use it to approve credit cards or automobile loans, it is increasingly being
     used to evaluate small businesses. Some lenders use it to identify prospective
     borrowers at both ends of the spectrum: those who clearly qualify for a loan and those
     who clearly do not. Eight of the nine lenders we reviewed, however, avoid credit
     scoring for small business loans largely because they do not think there is a strong
     correlation between a borrower’s past credit history, as measured by the score, and
     how a small business loan will perform. Although some of the lenders use credit
     scoring for consumer loans, they believe that lending to small businesses is simply too
     idiosyncratic to be analyzed effectively by an automated system. Moreover, lenders
     noted that credit scoring could preclude potentially good borrowers who did not have
     the “right” number of profitable years, the “minimum” number of years in a
     geographical area, or a way to quantify positive future prospects.

3.   Successful lenders ge nerally avoid the use of external loan packagers. Most of
     the lenders interviewed indicated that, with the exception of a few special situations,
     they avoid using third-party loan packagers, i.e., individuals or firms whose primary
     livelihood is preparing prospective borrowers’ 7(a) loan applications for a fee.
     Although one lender noted that packagers have expedited its loan approval process,
     others stated that packagers often submitted substandard loans and/or insufficient
     documentation. In addition, the packagers were viewed as having insufficient
     incentive to bring in high-quality loans because they are paid regardless of the quality
     of the applications.

4.   Successful lenders require the borrow er to demonstrate relevant experience in
     the type of business to which credit is to be extended. The lenders look for
     technical experience and/or management background in the same industry. Seven of
     the nine lenders stressed the importance of a borrower having management experience
     in running a similar kind of business. This is especially important in an environment
     where the growth of small business is increasingly attributed to people being laid off
     by other companies.

5.   Successful lenders require the borrower to pledge both personal and business
     assets as collateral, despite the availabi lity of the SBA guarantee. Regardless of
     the type of small business loans (SBA or non-SBA), all the lenders contacted require
     borrowers to pledge personal and business assets whenever collateral is needed.


                                            vii
     Although an SBA guarantee is sometimes used when the lender requires more
     collateral than the borrower can provide, none of the lenders we reviewed appear to
     use the SBA guarantee as a full substitute for collateral. Moreover, all lenders would,
     if they deemed it necessary, require personal assets such as the borrower’s residence
     or securities. Some lenders hold collateral even if the equity has little value to provide
     a psychological incentive for a borrower to remain current on a loan.

6.   Successful lender s centralize final lending decisions to ensure consistency and
     control. Although large and small lenders may differ in their methods of reviewing
     loans, both require at least one official, other than the originating loan officer, to
     review the SBA loan in detail and give final approval. This structure removes the
     final credit decision from dispersed loan officers and centralizes it in the hands of a
     single executive or team to ensure consistency, control, and efficiency in loan
     origination.

7.   Successful lenders hold the loan officers accountable for problems in the loans
     they originate. Because a final credit review is only as good as the information
     passed forward and the analysis originally performed, the majority of lenders believe
     strongly in the accountability of the originating loan officer. Although none of the
     lenders emphasized punitive actions against the loan officer for a defaulted loan, in
     most cases the officer must assist in the collection of past due loans.

8.   Successful lenders emphasize quality loan origination over monitoring. Eight
     of the nine lenders stated that proper loan origination is more important than
     monitoring. Most believe that shortcuts at the front end of the lending process will
     result in defaults. In addition, it may not be worthwhile to make risky loans given the
     amount of work involved in keeping such loans current.

9.   Successful lenders assign risk ratings to new loans and periodically reasses s
     them through the life of the loans. All lenders interviewed either already use a risk
     rating system or have plans to create one. In a typical system, a new loan is assigned
     a numerical value denoting its risk level at the time of origination. Over the life of the
     loan, the number may be revised depending on the borrower’s payment record or
     other factors. Once deficiencies are identified, all the lenders have ways to highlight
     and track problem loans. Such risk rating systems differ from credit scoring, which
     is used before a decision to make a loan.

10. Successful lenders proactively watch for warning signs of future loa n
    repayment problems. The best early warning system is simply to stay in touch with
    the borrower. Some lenders do not wait for loans to become past due; instead, they


                                             viii
     watch for indications of potential future collection problems, like failure to renew
     hazard insurance or decreased profits from the previous year’s level.

11. Successful lenders identify past due l oans early and initiate vigorous collection
    efforts. One of the most common attributes of the lenders in our sample, regardless
    of the type or size of the institution, is the aggressiveness with which they identify and
    seek to collect on past due SBA loans--usually within days of a payment being late.
    Such quick action can reduce the need for time-consuming collection actions and
    enable such lenders to adjust the loan terms or resolve other borrower problems early.

12. Successful lenders emphasize working out a problem loan to avoid liquidation.
    Several of the lenders we interviewed stressed that loan liquidation should be
    considered only as a last resort for recovering payment on a troubled loan. In general,
    they believe that greater recovery can be achieved through the continuation of loan
    payments from a going concern--even if the loan terms must be modified--than
    through the liquidation of assets.


                       Office of Financial Assistance Comments

The Associate Administrator for Financial Assistance (AA/FA) stated that some of the
lenders’ statements indeed described best practices in the industry. He also made a number
of technical comments, many of which have been incorporated into the report.

Two best practices in particular concerned him. First, he took issue with the finding that
the successful lenders sampled generally avoid the use of external loan packagers, noting
that packagers serve a worthwhile purpose in meeting small business needs. He also
challenged the finding that the lenders in the sample require borrowers to pledge personal
and business assets whenever collateral is needed, noting that while collateral is important
in the commercial market, the practice of requiring collateral may not be the best practice
in terms of carrying out Congress’ and SBA’s intent.

In response to the AA/FA’s concerns about loan packagers, the OIG noted that, as of
October 1995, criminal investigations had been initiated on packager-prepared loan
applications involving a potential loss to the Government of as much as $125 million.
Moreover, SBA formed a committee in 1995 to examine the problem. With this as
background, the OIG believes that lender misgivings about full-time packagers--as opposed
to accountants and other professionals who may occasionally prepare loan applications as
a service to their clients--cannot be ignored. On the issue of obtaining collateral, the OIG
does


                                              ix
not view this practice as detrimental to carrying out the intent of the 7(a) program; it is
instead just one of various considerations required in making a loan.

The AA/FA’s comments appear in Appendix D. The OIG response to those comments
appears in Appendix E.




                                            x
                                    BACKGROUND


Under Section 7(a) of the Small Business Act (Public Law 85-536, as amended), SBA
guarantees private lenders’ loans to small business borrowers who cannot obtain credit
elsewhere on reasonable terms and conditions. SBA currently guarantees up to 90 percent
of such loans. The guarantee amount is generally limited to $750,000 except for Defense
Loan and Technical Assistance Program, International Trade, and Pollution Control loans.
Emphasizing the use of guarantees against borrower default reflects the Agency’s shift
during the 1980s from directly subsidizing credit risk to improving access to capital at the
least possible cost. More than 8,000 lenders--banks as well as nonbank lenders such as the
Small Business Lending Companies (SBLCs)--have made at least one 7(a) loan in the past
five years. SBA’s share of outstanding 7(a) loans was approximately $21 billion at the end
of FY 1996.

To manage its workload more efficiently, SBA allows some lenders greater authority to
originate, monitor, and service 7(a) loans. Under the Certified Lenders Program (CLP),
lenders are authorized to analyze borrowers’ credit factors, but the loans must receive SBA
approval before being guaranteed. Under the Preferred Lenders Program (PLP), lenders
are authorized to analyze credit factors and make loan guarantees without prior SBA
approval, although the Agency does review PLP loans for eligibility prior to issuing a loan
number. There are currently over 900 participating CLP lenders and 350 participating PLP
lenders, with PLP lenders responsible for 21 percent of the number of 7(a) loans approved
and 39 percent of the dollar volume during FY 1996.

The challenge for SBA is to serve small business borrowers while minimizing the cost of
the 7(a) program. Three factors make this an increasingly difficult task:

     First, the 7(a) program has grown dramatically over the last few years. From
     FY 1992 to FY 1996, the annual number of approved 7(a) loans increased from
     24,284 to 45,845--with the total dollar amount rising from $5.9 billion to $7.7
     billion, although the Agency had received appropriations for a $10.8 billion
     program for that year. An appropriations level of $7.7 billion has been approved
     for FY 1997. Even if the percentage of nonperforming loans SBA purchases
     from lenders in fulfillment of its guarantee remains constant or declines, the
     Agency may face significant dollar losses simply because of the 7(a) program’s
     size. Although subsequent recoveries reduce the amount of actual losses, SBA
     currently purchases between $400 million and $450 million of defaulted loans
     annually. According to SBA’s Office of the Chief Financial Officer (CFO), the
     Agency projects that annual purchases could double by the year 1999 if loan

                                             1
     demand forecasts are realized.

     Second, the number of SBA employees (excluding disaster assistance staff, most
     of whom are employed on a temporary basis) has decreased nearly 26 percent--
     from 4,120 in FY 1990 to 3,054 in FY 1996. Although comparable data for the
     7(a) program is not readily available, SBA officials anticipate that the dramatic
     increase in the number of 7(a) loans combined with both recent and anticipated
     reductions in staffing could hamper the management of the portfolio.
     Accordingly, the Agency will need to rely even more heavily on its lenders to
     keep losses on loans to a minimum.

     Third, the lenders themselves have experienced major change. For example,
     from 1990 to 1995, the number of commercial banks declined from roughly
     12,800 to approximately 10,500. Moreover, according to Agency officials, not
     only do lending institutions frequently change ownership, but they also
     experience high turnover in loan personnel. This volatility makes it difficult to
     determine whether the previous or current employees are responsible for a
     lender’s performance--good or bad--on SBA loans. To complicate matters, even
     competent lenders can experience high SBA loan purchases because of regional
     recessions or other uncontrollable factors.

A resource-constrained SBA must, therefore, balance the seemingly conflicting goals of
guaranteeing loans that lenders otherwise might not make with keeping purchases of
defaulted loans to a minimum--all at a time when lenders are undergoing major change.
A key to resolving this issue is to determine what practices SBA’s lending partners could
most effectively use to minimize losses, while serving the potentially higher risk borrowers
that the 7(a) program was established to serve.




                                             2
                  OBJECTIVES, SCOPE, AND METHODOLOGY


The Office of Inspector General (OIG) initiated this “best practices” inspection in
October 1995 out of concern that, with reductions in staff to monitor the 7(a) loan
portfolio, SBA will be forced to rely more heavily on its lending partners to minimize
defaults and fraud. The inspection’s objective was to identify practices that could improve
7(a) lenders’ credit risk management systems and, conversely, help SBA identify lenders
likely to pose a higher risk of loan defaults. By recognizing the credit risk management
practices of some of its more successful lenders, SBA can encourage or require that those
same practices be adopted by lenders whom the Agency believes need to improve their
management of SBA-guaranteed loans.

For the purpose of this report, the term “best practices” refers to those credit management
practices identified as the most effective for controlling risk. The term does not imply that
the practices represent an exhaustive list of all effective practices. Because this study’s
conclusions are based on case studies of nine lenders, they cannot be projected to the
universe of 7(a) lenders; the selected lenders are not intended as a representative sample
of 7(a) lenders. We believe, however, that the best practices of this cross-section of lenders
may be a useful guide to the vast majority of lenders who either need to develop internal
policies and procedures for the management of their SBA loan portfolio or wish to improve
control over their credit systems.

To research modern credit analysis and monitoring techniques and to obtain relevant
financial data, the inspection team used the resources of the Office of the Comptroller of
the Currency (OCC), the Library of Congress, banking associations, bank data services,
SBA/OIG, and the Department of the Treasury OIG. SBA regulations, standard operating
procedures, CFO reports, and other SBA documents were reviewed. The team interviewed
Federal Deposit Insurance Corporation (FDIC), Federal Reserve System, OCC, and
lenders’ officials, as well as officials from SBA’s Office of Financial Assistance (OFA),
CFO office, and district offices.

To select the lenders for our case studies, we reviewed SBA-generated data on 7(a) lenders
and chose a sample from the universe of active lenders, i.e., from those who had originated
at least 100 Section 7(a) loans during a ten-year period (FY 1986-95). SBA officials
agreed this was an appropriate criterion for active lenders. SBA’s Office of Information
Resources Management (OIRM) then provided us with ten-year purchase rates and other
data on active lenders from each region. SBA computes its purchase rates in terms of both
numbers of loans and dollars, i.e., the number of loans purchased divided by the number
of loans disbursed, and the dollar amount of loans purchased divided by the dollar amount
of disbursed loans.

                                              3
With the assistance of OFA, CFO, and district office officials, we identified criteria for
selecting a cross-section of successful lenders. These included ten-year purchase rates at
or significantly below both the mean and median rates we computed for a given region’s
SBA lenders (six of the nine lenders selected had the lowest or nearly the lowest purchase
rates in their regions); unusual challenges, such as lending to an underserved high-risk
market or correcting the deficient practices of prior management; portfolios of loans from
five to ten years old to allow sufficient time for defaults to appear; geographic location and
type of lender ( bank versus SBLC); and asset size. To distinguish by size we used the
informal banking industry standard of defining a small lender as one with less than $300
million in assets, a medium lender as one with assets between $300 million and $1 billion,
and a large lender as one with more than $1 billion in assets.

The OIG inspection team also consulted with SBA staff in the relevant districts to ensure
that the selected lenders were appropriate for the sample and then visited each of the nine
lenders and reviewed the policies and procedures that they deemed essential for sound
credit initiation, analysis, and monitoring. For a profile of the lenders selected, see
Appendix B, Table 1.

This inspection was conducted between October 1995 and June 1996 in accordance with
the Quality Standards for Inspection issued in March 1993 by the President’s Council on
Integrity and Efficiency.




                                              4
                                        FINDINGS


                          Practices of Successful 7(a) Lenders

This section presents the practices that were identified in our sample of successful lenders
as key components for effective credit risk management in the handling of SBA loans. For
a discussion of the common characteristics and concerns of these lenders, see Appendix A.


1.   Successful lenders foster a long-term and comprehensive relationship wit h
     their borrowers that extends beyond the scope of an SBA loan.

Most of the lenders we reviewed strive to establish lasting relationships with their
customers and service all of their financial needs--in contrast to some of their competitors,
whom they view as too “transaction oriented.” The emphasis on long-term customer
relationships can be mutually beneficial for both lenders and borrowers: lenders learn more
about borrowers’ financial status and profit from selling diverse services, and borrowers
gain an enduring source of assistance as well as credit. Moreover, as lenders meet the
needs of small business borrowers for a wide range of services and find their small business
portfolios becoming more profitable, the lenders become more likely to satisfy the SBA’s
objective of providing more loans to those in the small business community who cannot
obtain credit elsewhere on reasonable terms and conditions.

When a lender markets services such as deposit accounts and lines of credit to an SBA
borrower, the lender can gain the ability to monitor the borrower’s overall financial
condition and determine the borrower’s ability to pay. One lender said that if a deposit
account is having problems, the loan officer is notified because a low checking account
balance can serve as a useful indicator. On the one hand, the borrower’s business may be
prospering, but funds may be low because the business requires the purchase of more
inventory or material; consequently, the loan officer may be willing to provide the
borrower with another loan. On the other hand, the borrower may have bid poorly on some
potential contracts or simply may not be getting enough work. The loan officer can then
try to arrange for management, technical, or marketing assistance. Moreover, if a problem
occurs with an SBA loan, both personal and business accounts can be checked to determine
why the borrower is late with a payment. For example, when a borrower becomes past due
on a loan, the lender can monitor the business’ checking account to see if any deposits have
been made or if any abnormal account activity has occurred.

For some of the smaller banks with fewer branch offices, requiring borrowers to maintain
checking and other accounts is not always feasible. These lenders prefer that their

                                             5
borrowers have other service relationships, but it is not a requirement for obtaining a loan.
Small Business Lending Companies (SBLCs) also can have a difficult time offering an
expanded banking relationship with borrowers due to their limited locations and absence
of deposit accounts.

Nonetheless, the two SBLCs we interviewed make an effort to establish long-term
relationships and offer their customers as many services as possible. One pointed out that
if it can help its borrowers reduce their costs, the borrowers will be more profitable and
more likely not only to make their monthly payments, but also to grow and require other
loans and services. The assistance includes value-added services such as discounts on
shipping and long distance calling, as well as help in establishing employee benefit
packages.


2.   Successful lenders rely more on evaluating an individual borrower’s situation
     than on automated screening methods such as credit scoring.

Credit scoring, which uses computer models to measure and predict the “creditworthiness”
of potential borrowers, is designed to improve the efficiency of the loan origination
process. It tests for variables such as a borrower’s severity and frequency of delinquencies,
number of creditors, average outstanding debt balances, and types of credit in use, e.g.,
bank cards or installment loans. Although credit scoring traditionally has been limited to
consumer credit lenders who use it to approve credit cards or automobile loans, it is
increasingly being used to evaluate small businesses. Some lenders use it to identify
prospective borrowers at both ends of the spectrum: those who clearly qualify for a loan
and those who clearly do not. Moreover, SBA is currently testing credit scoring in the
“LowDoc” (low documentation) loan program, while requiring lenders to perform a full
analysis as well.

Some of the lenders interviewed, as well as SBA’s Office of Advocacy, believe that credit
scoring is a “wave of the future,” and that banking regulators may eventually require banks
to credit score business loans. The banking regulators we interviewed concurred that credit
scoring is an important evaluation tool being used by many of the larger banks. The theory
is that credit scoring speeds up the loan approval process while minimizing underwriting
costs.

Eight of the nine lenders we reviewed, however, avoid credit scoring for small business
loans largely because they do not think there is a strong correlation between a borrower’s
past credit history, as measured by the score, and how a small business loan will perform.
Although some of the lenders use credit scoring for consumer loans, they believe that
lending to small businesses is simply too idiosyncratic to be analyzed effectively by an

                                             6
automated system. The lenders prefer a more personal approach and indicated that because
small business loans are less homogeneous than consumer loans, they need to be evaluated
on a case-by-case basis. Even the one lender interviewed that was enthusiastic about the
scoring process uses it only for small business loans under $100,000. Another lender noted
that credit scoring may not be effective for evaluating borrowers other than the obvious
ones scoring in the top and bottom 20 percent.

In addition to the usual credit analyses, some lenders evaluate intangible qualities of
borrowers such as their attitudes, personal characteristics, and workplace operations. For
example, one executive cited situations in which the transfer of a business’ ownership and
the related transition to new management posed substantial risk to the business’ operations.
Another area to assess, particularly with small entrepreneurs, is whether they will be able
to adjust to changes in the company and be willing to hire employees that are strong in the
areas in which they are weak. A common practice is to visit the borrower’s establishment
before underwriting a loan to get a better sense of the business or to check on a borrower’s
veracity. The successful lenders made it clear that lending is as much an art as a science,
and that they have learned to follow their instincts when making loan decisions.

Despite a great deal of positive media attention about credit scoring taking the human factor
out of lending decisions, some experienced lenders point out that credit scoring could hurt
potentially good borrowers by not taking into account important personal factors such as
character, standing in the community, or management experience. Moreover, lenders noted
that credit scoring could preclude potentially good borrowers who did not have the “right”
number of profitable years, the “minimum” number of years in a geographical area, or a
way to quantify positive future prospects.


3.   Successful lenders generally avoid the use of external loan packagers.

Most of the lenders interviewed indicated that, with the exception of a few special
situations, they avoid using third-party loan packagers, i.e., individuals or firms whose
primary livelihood is preparing prospective borrowers’ 7(a) loan applications for a fee.
Although one lender noted that packagers have expedited its loan approval process, others
stated that the packagers they have dealt with tend to submit substandard loans and/or
insufficient documentation. In addition, the packagers were viewed as having insufficient
incentive to bring in high-quality loans because they are paid regardless of the quality of
the applications. The interests of the packager and the lender may also be in conflict: if
the packager has negative information about a borrower, for example, the packager has no
incentive to report it to the lender. In contrast to the views expressed above, SBA’s
Associate Administrator for Financial Assistance (AA/FA) believes that packagers serve
a worthwhile purpose in meeting small business needs and that the quality of any assistance

                                             7
provided must be monitored not only by the Agency but also by the lending industry to
make certain that the small business community receives quality service.

Nonetheless, most lenders in our sample were particularly distrustful of the accuracy of
packagers’ data. Reasons ranged from a concern that packagers lack proprietary
responsibility for accuracy to experiences with packagers submitting insufficient
information. An SBA district office concurred, stating that when a loan packager’s name
is on the documentation, the loan is somewhat suspect because the district office has found
that such loans are unlikely to meet SBA financial standards. For example, one loan
packager showed the prospective borrower as having a negative net worth. Moreover, the
district office asserted that a packager is paid for completing loan applications--without
regard to whether applications are approved. Again, there is little incentive for packagers
to screen applicants carefully.

Other lenders avoid external loan packagers because they find it useful to have the
borrowers prepare loan application information themselves. This procedure enables the
borrowers to better understand their own businesses and to show greater commitment to
the loan by developing a business plan and loan application themselves. This approach
also provides the loan officer with better insights into the character and competence of the
applicant. One lender even has the borrower, rather than an accountant, prepare the
company’s financial projections so that the borrower understands and is responsible for the
numbers. On the other hand, two banks stated their willingness to serve as internal loan
packagers for their borrowers to help them complete loan applications and pull together
information for the complete package. They view this assistance as a reasonable service
to provide potential customers and as a way to understand the customers’ businesses better.


4.   Successful lenders require the borrow er to demonstrate relevant experience in
     the type of business to which credit is to be extended.

Lenders look for both technical experience and management background in the same
industry. One stated that it is not enough for a borrower opening a restaurant to have
worked as a night manager; he or she must have had experience in making key business
decisions. SBA district officials concurred that most business failures result from a lack
of relevant management experience.

Seven of the nine lenders stressed the importance of a borrower having management
experience in running a similar kind of business. In an environment where the growth of
small business is increasingly attributed to people who are laid off by other companies, it
is important that these entrepreneurs have the skills and management experience necessary
to start a business. Moreover, seven of the nine lenders consider a borrower’s past

                                             8
experience in that line of business to be one of the most important considerations in
originating a start-up loan. In some cases, lenders will approve a borrower for a LowDoc
loan with little cash investment if the borrower has hands-on experience. Other lenders that
are reluctant to loan to “start-ups” may choose not to classify a new business as a “start-up”
if the owner has significant past experience in that type of business.


5.   Successful lenders require the borrower to pledge both personal and business
     assets as collateral, despite the availability of the SBA guarantee.

Regardless of the type of small business loans (SBA or non-SBA), all the lenders contacted
require borrowers to pledge personal and business assets whenever collateral is needed.
Although an SBA guarantee is sometimes used when the lender requires more collateral
than the borrower can provide, none of the lenders we reviewed appear to use the SBA
guarantee as a full substitute for collateral.

Holding collateral can lower a lender’s purchase rate. One small lender had approved
several loans to borrowers whose businesses later failed, but the lender held enough
collateral to pay off the defaulted loans.

Regardless of the amount of equity injection they require for a loan, lenders stated that they
try to obtain as much collateral as possible on SBA loans, with coverage reaching as high
as 70 to 100 percent of loan value. Moreover, all lenders would, if they deemed it
necessary, require personal assets such as the borrower’s residence or securities. Loans to
“start-up firms” were even more stringent, with borrowers sometimes drawing on friends
and family for collateral.

Interestingly, there was disagreement among SBA district officials on the importance of
collateral. For example, at one district office, the belief was that just the threat of being
able to take property improves the chances of collecting on a loan to such an extent that the
lender or SBA may never need to carry out the threat. At another district office, it was
suggested that the lenders should be more concerned about cash flow than collateral. To
clarify its policy, SBA is drafting a standard operating procedure that will focus loan officer
attention on a borrower’s cash flow and character as the major considerations in loan
origination. A lender agreed that requiring collateral is a difficult issue, especially when
borrowers are reluctant to risk personal assets when they are already risking business assets
to obtain a loan. Nonetheless, if a borrower does not have the collateral, this lender will
look to the borrower’s friends or family.

Some lenders hold collateral even if the equity has little value. The idea is to provide more
of a psychological, as opposed to a financial, incentive for the borrower to remain current

                                              9
on the loan. One loan officer said that although most of his borrowers do not have enough
assets to cover the value of their loans, he still requires some type of collateral to get their
attention.

Requiring personal assets can also dissuade a borrower from starting an excessively risky
business in the first place. One lender told us that sometimes when an applicant is advised
that personal collateral will be needed, the applicant will decide not to start the business,
admitting to countless doubts about the business’s viability.


6.    Successful lender s centralize final lending decisions to ensure consistency and
      control.

Although large and small lenders may differ in their methods of reviewing loans, we found
that both require at least one official other than the originating loan officer to review the
SBA guaranteed loan in detail and give final approval. This structure removes the final
credit decision from numerous loan officers and centralizes it in the hands of a single
executive or team to ensure consistency, control, and efficiency in loan origination. A
study prepared for SBA’s Office of Advocacy indicates that centralizing and standardizing
credit decisions is becoming increasingly common among large banks. The study also
found that such a process expedites loan approval for customers, a necessity for many small
businesses.1

In most of the smaller banks visited, the branches are required to send loan packages to the
central office to be approved by senior management. The dollar amount of the loan often
determines the level of seniority needed to approve the loan. For example, one lender
requires the senior vice president to approve all amounts up to $75,000, an officer loan
committee (five bank officers including the president) to approve loans from $75,000 to
$350,000, and the director’s loan committee (four directors and the president of the bank)
to approve loans over this amount. In most of the small banks, the president is involved
in all loan decisions; they centralize loan decision-making primarily because the size
constraints of the institution make it practical to do so. One small bank attributed its low
purchase rates to senior management’s participation in the origination process.

In the larger banks and SBLCs, the loan officers tend to have a smaller role in the analysis
process, i.e., they are primarily responsible for bringing in business and collecting
supporting documentation. The loan package is then sent to a central location where it is


       1
        Laub, P. Michael and State and Federal Associates, Inc. Small Businesses and Large Banks , 1994, p.
70.

                                                    10
analyzed in the credit department, often by teams that specialize in different geographical
regions. The final decisions are made by the credit department managers, with high value
loans generally approved by senior managers.


7.   Successful lenders hold the loan officers accountable for problems in the loans
     they originate.

Although many lenders have centralized the process for making final credit decisions, the
loan officer responsible for originating a loan is still the primary source of information on
the borrower. Because a final credit review is only as good as the information passed
forward and the analysis originally performed, the majority of lenders believe strongly in
the accountability of the originating loan officer. Although none of the lenders emphasized
punitive actions against the loan officer for a defaulted loan, in most cases the officer must
assist in the collection of past due loans. Even lenders with loan collection specialists insist
that loan officers be part of the collection process. As one senior official commented, if an
officer makes a loan, the officer collects on the loan. Keeping the monitoring and servicing
function close to the loan officer may also keep a problem borrower from misrepresenting
the facts of the loan transaction to the lender’s servicing personnel.

A post-mortem review of “lessons learned,” whenever a loan goes into default, has also
proved useful. The loan originator and the lender’s credit department meet to discuss the
analysis involved in approving the loan and the reason the loan went bad. The purpose is
to help the originator target key factors that should be addressed when evaluating future
loans.


8.   Successful lenders emphasize quality loan origination over monitoring.

Eight of the nine lenders stated that proper loan origination is more important than
monitoring. In other words, they stress prevention over cure. Most of the lenders believe
that shortcuts at the front end of the lending process will haunt them later. Besides,
according to an SBA district official, it is not worthwhile for lenders to make risky loans
because keeping them current requires too much work.

Proper loan origination requires a thorough understanding of the potential borrower. The
basic lending factors to consider are the “five C’s”--capital, capacity, collateral, cash flow,
and character. Specific management and financial information sought by lenders includes
the business plan, sources of repayment funds, level of leverage, company liens, and the
business officers’ and firm’s credit histories. The lenders also seek face-to-face contact
with the loan applicant, references from suppliers, and intangible judgments of the owner’s

                                              11
capabilities, e.g., perceptions regarding an owner’s flexibility in handling problems or
ability to compensate for personal weaknesses.

Obviously, loan officers can make mistakes during loan origination, including accepting
a borrower’s overly-optimistic projections and focusing on past profits rather than current
debt. Loan officers sometimes fail to double-check financial statements or talk to a
borrower’s suppliers and customers. Finally, the officers may ignore a borrower’s cash
flow, capital, collateral, and lien position.

Nonetheless, even proper loan origination does not mean that lenders should reduce
monitoring efforts once a loan is made. According to one lending officer, regardless of
how careful lenders are in the origination process, they still need to engage in periodic
monitoring to minimize defaults. For example, a borrower may look perfect on paper, but
an uncontrollable event such as protracted street repair near the business could reduce sales
volume and make loan repayment difficult. In such a case, early detection of trouble
through monitoring and remedial actions such as rewriting the terms of the loan are the
most effective ways to prevent a default.


9.   Successful lenders assign risk ratings to new loans and periodically reasses s
     them through the life of the loans.

All lenders interviewed--banks and SBLCs alike--either already use a risk rating system or
have plans to create one. In a typical system, a new loan is assigned a numerical value
denoting its risk level at the time of origination. Over the life of the loan, the number may
be revised depending on the borrower’s payment record or other factors. Such risk rating
systems differ from credit scoring, which is used before a decision to make a loan.

The systems used by most lenders in our sample were patterned after those developed by
the FDIC or OCC. Lenders have considerable flexibility in setting up such systems; for
example, the FDIC does not mandate that banks use a specific risk rating system but merely
requires that a bank report to the FDIC what system it uses.

In one risk rating system reviewed, the lender assigns to a new borrower a rating of one (for
a low risk borrower) through eight. The borrower is then monitored throughout the life of
the loan. A borrower whose rating falls to four at any time is put into a special watch
program wherein the bank tracks financial statements quarterly and visits with the company
annually. According to a bank official, this program provides an effective early detection
system, allowing bank officials to provide corrective action to the borrower such as
restructuring a loan, renegotiating suppliers’ contracts, creating a marketing plan, or even
providing the borrower with more money to help the business succeed. The bank notifies

                                             12
SBA only when the loan moves downward to a five or six rating or into liquidation.

Lenders identified various situations that can move a risk rating down. For example, a
borrower may experience losses, profits below projections, litigation, a deterioration in
collateral value, declining net worth, or bankruptcy. The borrower may also default on
loan payments, violate financial covenants, or stretch out payments to suppliers. A reversal
of these situations can also move a risk rating upward.

Lenders differ as to how actively they pursue information that might change a loan’s risk
rating. In some cases the rating seldom changes, while in others, lenders periodically
review the ratings. For example, one lender reviews the loan’s rating whenever it receives
information that could affect the rating. If a loan’s rating drops, the loan officer is notified
and he/she contacts the borrower to identify the problem and to arrange for payment. In
some cases, the rating may also change as a result of an annual audit or quarterly reviews
conducted by the loan review department.

The inspection team found that the lenders without a risk rating system are interested in
creating one. One lender plans to create a more detailed “one through ten” system because
the lender has a relatively high risk loan portfolio.

Notwithstanding the character of their loan portfolios, all the lenders have ways to highlight
and track problem loans once deficiencies are identified. Some lenders automatically place
a loan on a watch list when the loan drops to a certain risk rating level. Others merely
inform the loan officer that a loan has dropped in its rating so that the officer can contact
the borrower. Still another lender handles the same situation by referring the loan to a
specialized “problem asset committee” of senior officials.


10. Successful lenders proactively watch for warning signs of future loa n
    repayment problems.

According to SBA district officials, the best early warning system a lender can have is
simply to stay in touch with the borrower. Some lenders do not wait for loans to become
past due. Nearly half stated that they watch for indications of potential future collection
problems. These include obtaining clues about a borrower’s financial health through non-
loan relationships such as a checking account or a line of credit, performing financial
statement reviews on all loans, and informing the collection department of anything
unusual. For example, while a borrower may be current on payments, he or she may have
failed to renew hazard insurance or profits may have decreased from the previous year’s
level. Other indications of potential borrower problems include a sudden or dramatic
change in profit margin, falling sales, failure to submit financial statements, or increased

                                              13
absence from the business.


11. Successful lenders identify past due l oans early and initiate vigorous collection
    efforts.

SBA district officials suggest that lenders invite trouble when they ignore borrowers’ early
past due situations. One of the most common attributes of the lenders in our sample,
regardless of the type or size of the institution, is the aggressiveness with which they
identify problems and seek to collect on past due SBA loans.

One lender goes so far as to issue a delinquency report for borrowers that are just one day
late and then has centralized groups make calls to those borrowers. Another lender flags
loans that are only three days past due. A third lender has a loan officer call the borrower
if the loan is five days past due; at ten days past due, the officer must report the loan to a
credit review committee, thus ensuring the responsible loan officer’s prompt action. Most
lenders contact the borrower before the loan is 15 days past due.

The motivation for being so aggressive varies by lender. Some believe that quick action
at the first sign of trouble lets the customer know that the lender is watching the loan’s
performance. It also reduces the need for time-consuming collection actions. Moreover,
the lender can see if the borrower needs the loan terms adjusted or if other problems can
be resolved early. Other lenders may depend on vigorous collection efforts, particularly
if they serve high-risk borrowers. In such cases, little collateral may be available for
liquidation anyway. One lender in our sample even sends someone to visit such borrowers
each month to make certain the payments remain current.

Large loans are not always viewed as the ones most likely to falter. A major lender noted
that small loans in default tend to deteriorate faster because there is less collateral to rely
on.


12. Successful lenders emphasize working out a problem loan to avoid liquidation.

Several of the lenders we interviewed stressed that loan liquidation should only be
considered as a last resort for recovering payment on a troubled loan. In general, the
lenders conclude that greater recovery can sometimes be achieved through the continuation
of loan payments from a going concern--even if the loan terms must be modified--than
through the liquidation of assets.

Three of the lenders we interviewed stressed that they will do whatever they reasonably can

                                              14
to avoid a loan liquidation. One lender stated that even if a loan is 180 days past due, the
lender will often try to work out a problem loan rather than have SBA purchase it. The
lender’s emphasis on familiarity with the borrower and his/her business often enables the
lender to avoid liquidation by developing tailored solutions to loan problems before
liquidation becomes necessary. A second lender indicated that if the borrower previously
had a good payment history, chances are that the borrower is worth the lender’s investment
in the development of a workout strategy. Such workout strategies may include extending
loan maturity or modifying payment schedules. A third lender said that careful analysis of
a loan at the time of origination provides important data that can be used to closely monitor
loans, especially when a borrower shows any sign of problem. If a borrower does show
signs of problems, such as late payments, the lender reacts quickly to find ways of avoiding
liquidation. A rule of thumb, according to one SBA district official, is that if a lender can
get three payments out of the borrower after a default, then the loan has a high probability
of recovering.




                                             15
                                                                      APPENDIX A

    COMMON CHARACTERISTICS AND CONCERNS OF SBA LENDERS


Despite myriad differences among the nine lenders we reviewed (see Appendix B, Table
1), there were several key characteristics shared by our sample relating to SBA and its role
in small business lending. The inspection team did not attempt to measure or evaluate these
shared characteristics against each other and cannot state whether one carries more weight
in promoting good lending practices than any other.

High priority given to SBA lending. The lenders shared a strong belief that SBA and its
products were extremely important to their institutions and to the small business
communities they serve. In fact, six of the lenders noted that they consider their SBA
lending operations just as important as their conventional lending operations. One bank
indicated that it puts its best people in the SBA loan department. Another said it would not
hire a loan officer who did not have a solid understanding of SBA lending processes and
procedures. Such views are consistent with SBA district officials’ views that the best
lenders have teams dedicated solely to SBA loans, while lenders whose branch loan officers
do not understand the 7(a) program are more likely to experience problems over the life of
the loans.

In general, the lenders interviewed demonstrated a commitment to support SBA and its
lending programs. All voiced their desire to promote and protect the integrity of SBA loan
programs, and six stressed their philosophy of not using the SBA guarantee program to
“make bad loans good” or to serve as the lending program of last resort.

SBA loans fit well in lenders’ product lines. Several lenders described how many of the
small business loans they originated would not have been made without an SBA guarantee.
A majority (seven out of nine) in our sample emphasized the importance of SBA in
providing longer term loans than could be provided through traditional lending methods.
They stressed that this feature is especially valuable to a borrower who cannot demonstrate
adequate cash flow to support repayment under a shorter term scenario. Increasing the term
of the loan lowers the monthly cash outflow from a business; it also increases debt service
capability and reduces the risk for the lender.

Lender suggestions. Several lenders suggested incentives and disincentives that SBA
should consider as a means of defining and strengthening the Agency’s role in small
business lending. Their suggestions included the establishment of clear, concise, and
consistent rules that reward lenders who maintain low purchase rates and penalize those

                                            17
who cost the Government money. For example, several lenders recommended that SBA
risk-rate lenders according to their purchase rates, basing guarantees on a lender’s purchase
rate: the higher the purchase rate, the lower the guarantee. Another suggestion was that
SBA decrease its role in the processing of loans and increase its role as a regulator. Given
the recent downsizing of SBA’s personnel, shifting more responsibilities to the Agency’s
resource partners--especially its PLP lenders--may prove to be a viable alternative. The
lenders encouraged a greater emphasis on SBA’s regulatory function, i.e., monitoring loans
and exercising its authority to deny a guarantee for loans prepared, serviced, or liquidated
improperly. Several of the lenders took the idea one step further and suggested that SBA
revoke agreements with lenders having relatively high purchase rates. SBA district
officials tended to agree but cautioned against punishing a lender for problems beyond its
control, such as a deteriorating local economy, or for taking on riskier loans to meet SBA’s
mission of providing access to capital for those who cannot obtain credit elsewhere.

Because PLP status is jealously guarded by many lenders, it was also suggested that SBA
remove PLP status from those lenders with poor underwriting practices or, as an
alternative, simply not honor the guarantee if a PLP lender uses poor judgment or fails to
fulfill essential SBA documentation requirements.

Lender concerns. There were also two common concerns voiced by the lenders that may
warrant attention from SBA. First, the lenders with large territories are now required by
SBA to deal with two or more district offices, which may inadvertently issue conflicting
guidance. Lenders suggested that SBA develop more consistent practices across districts
and assign each lender to one specific district office regardless of where its loans are
originated. Several current SBA initiatives like the continued development of the PLP
Processing Center in Sacramento, CA; upgrading the loan servicing centers in Little Rock,
AR, and Fresno, CA; finalizing new standard operating procedures (SOPs), and the
performance of PLP lender reviews may alleviate such concerns by improving consistency
in guidance and procedures across the board. Moreover, SBA officials stated that, in recent
training of SBA field staff and lenders, the Agency stressed the need for uniform adherence
to regulations and SOP requirements to ensure national consistency in program
implementation. (See Appendix C for a list of 7(a) program initiatives.)

Second, the lenders voiced concern about the accuracy and completeness of SBA data.
This is an area that also troubled district officials and the inspection team, particularly with
regard to basic information such as lender identification numbers, number of loans made,
and asset size of lender. Although it is too early to evaluate the effect, SBA is attempting
to improve computer-based data reporting systems through OIRM. (See Appendix C)




                                              18
           APPENDIX B                                                                            TABLE 1
                                                                                 PROFILE OF LENDERS SELECTED FOR REVIEW


                        LENDER                 LENDER                LENDER                  LENDER                  LENDER                  LENDER                  LENDER                     LENDER                     LENDER
                           A                      B                     C                       D                       E                       F                       G                          H                          I

Lender Asset            145                  141                   3,500 1                2,400 2                 17,200                   1,792                  165                      80                         570
Size (dollars in
millions)

Lender Size 3           Small                Small                 Large                  Large                   Large                    Large                  Small                    Small                      Medium

1995 Small              Originated $17       Originated $88        Originated 165         Currently holds         Originated 193           In CY 1995             Currently holds          Currently holds            Currently holds about
                        million in SBA       million in small      SBA loans in CY        2,500 SBA loans         SBA loans worth          originated 1,461       about $16 million        about $15 million of       $25 million of SBA
Business Lending        loans in FY          business loans        1995 -- worth $40      in its portfolio.       $23 million in CY        SBA loans The          of SBA loans in its      SBA loans in its           loans in its portfolio.
Volume                  1995.                during CY 1995        million.               CY 1996 goal is         1995. Set goal of        dollar value of        portfolio. CY 1995       portfolio. CY 1995         CY 1995 total loans
                                             -- $35 million                               to originate $250       200 SBA loans for        these loans was        total loans made         total loans made and       made and dollar
                                             was SBA                                      million -- ½            all of CY 1996.          not available.         and dollar amount        dollar amount of           amount of loans
                                             related.                                     consisting of                                                           of loans originated      loans originated not       originated not
                                                                                          Section 504 loans.                                                      not available.           available.                 available.

Market Served           Mid                  New                   New England            National                Pacific                  National               Pacific                  Midwest                    Midwest
                        Atlantic             England                                                              Northwest                                       Northwest


SBA Lending             Start-ups and        Existing              Existing firms but     Primarily existing      Small businesses with    Professionals (not     Targets the whole        Companies too small        Venture capital oriented
                        firms with tight     manufacturing         will consider start-   manufacturing and       weak secondary           many start-ups)        spectrum of              for large lenders to       inner city loans
Focus 4                 cash flow            firms with annual     ups                    technology firms        support                                         borrowers                target: mostly service
                                             revenues of $2                               Approximately 25%                                                                                industry and
                                             million to $10                               of loans made are                                                                                manufacturing loans --
                                             million                                      for start-ups                                                                                    start-ups consist of 20%
                                                                                                                                                                                           of loans made

Type of Lender          Bank                 Bank                  Bank                   Nonbank                 Bank                     Nonbank                Bank                     Bank                       Bank

Status (PLP,            PLP                  PLP                   PLP                    PLP                     PLP                      PLP                    PLP                      PLP                        PLP
CLP, Regular) 5,6

           1.       Represents the total assets for the holding company. The bank’s total assets are not broken out separately
           2.       Represents total assets for the corporation as a whole -- including the small business financing operation
           3.       For purposes of this analysis, asset size of $0 -$300 million is classified as small, $301 million to $1 billion is classified as medium, over $1 billion is classified as large.
           4.       As described to SBA/OIG by the lender
           5.       PLP status does not mean that all SBA-guaranteed loans originated by the lender are PLP loans.
           6.       Lenders C and D received their PLP status after the SBA/OIG interview.
                                                                    APPENDIX C


                      SBA’S ONGOING 7(a) INITIATIVES


At the time of the OIG’s inspection (October 1995 through June 1996), SBA had a number
of initiatives underway designed to increase the efficiency and effectiveness of loan
origination, servicing, and liquidation. These initiatives included

    --             development of systems to facilitate centralized Low Doc loan
                   processing;

    --             development and implementation of Low Doc liquidation regulations;

    --             improvement in capacity and efficiency in loan servicing capabilities
                   at the Little Rock, Arkansas, and Fresno, California, Loan Servicing
                   Centers;

    --             continued development of the PLP Loan Processing Center in
                   Sacramento, California;

    --             improvement of monitoring systems using information developed at
                   the PLP Servicing Center;

    --             continued commitment to the development of ways to increase the use
                   of the Preferred Lenders Program;

    --             review, revision, consolidation and reduction of Standard Operating
                   Procedures for the Office of Financial Assistance;

    --             evaluation of effectiveness of SBA and lender loan liquidation
                   activities based on timeliness and recovery (Liquidation Task Force);

    --             development of electronic loan application processes for FA$TRAK,
                   PLP and Low Doc loan programs;

    --             development of improved computer-based data reporting systems
                   through the Electronic Information System (EIS);


                                         21
     --             development of improved access to loan program information through
                    use of the Internet; and

     --             performance of PLP lender reviews.

It was not within the scope of our review to assess these initiatives. Nonetheless, they
appear to complement the efforts of private lenders by implementing procedures that focus
on efficiency in the loan delivery, review, and liquidation process. By encouraging lenders
to utilize the practices outlined in this inspection report, SBA can further advance the
effective use of its resources.




                                            22
                                                       APPENDIX D




                U.S. SMALL BUSINESS ADMINISTRATION
                      WASHINGTON, D.C. 20416


OFFICE OF THE ADMINISTRATOR

November 1, 1996

TO:        Tim Cross
           Assistant Inspector General
             for Inspection & Evaluation

FROM:      John R. Cox
           Associate Administrator
             for Financial Assistance

SUBJECT:   Best Practices Inspection

The above inspection report has been reviewed by this office and
under separate cover, we have transmitted to you suggestions for
changes that we believe will better describe certain elements of
our programs and how they relate to the report findings. We have
attached an updated version of the comments.

In general, we found several comments in the report contributed to
those persons being interviewed that we believe indeed describes
"best practices" found in the lending industry. We will review
these comments more closely and see how or whether they can be used
given the public policy mandate given to the Agency.

Since the persons that were interviewed were not randomly selected,
some of the views expressed in the report, may not be shared by the
industry or SBA in general, and therefore the Agency should not
automatically assume that all views expressed are those of "best
practices" of the industry or ones that should be adopted by the
Agency.

We thank you for the opportunity to review the report. Once the
final report is issued, we will make it available to trade
associations supported by our participating lenders.




                                23
                U.S. SMALL BUSINESS ADMINISTRATION
                      WASHINGTON, D.C. 20416

October 31, 1996

TO:        Tim Cross
           Assistant Inspector General
           for Inspection & Evaluation

FROM:      John R. Cox
           Associate Administrator
             for Financial Assistance

SUBJECT:   Best Practices Inspection

We have reviewed the draft report on Best Practices and submit the
following comments:

      o    Page iii, line 2 should read "up to 90%" to reflect the
           most recent legislation that provides for a 90% guaranty
           on EWCP loans.

           The third paragraph mixes authority with appropriation
           levels and actual loan activity. We suggest that this be
           corrected by the following paragraph.

           ‘The 7(a) program has grown dramatically over the last
           few years, with the approved 7(a) loans increasing from
           $5.9 billion in Fiscal Year (FY) 1992 to $7.7 billion in
           FY 1996, although the Agency had received appropriations
           for a $10.8 billion program for that year.            An
           appropriations level of $7.7 billion has been approved
           for FY, 1997. Even if the percentage of non-performing
           loans SBA purchases from lenders remains constant or
           declines, the Agency may face major dollar losses simply
           due to the increase in the program's size.’

      o    Page v, #3....The comments as to packagers, especially
           the comment that they do not assume a credit risk is
           pointless.    A lawyer representing a criminal is not
           expected to share in a sentence handed down by the court.
           Why would a creditor expect them to share in the credit
           risk? A packager is not different than an attorney, an
           accountant, or an appraiser, that represents an
           applicant. An attorney, accountant, or other third party
           prepares statements and represents applicants. There are
           good ones as well as bad ones, as there are in all walks
           of life. Individuals rendering these types of services


                                 25
    are not expected to take part of the credit risk in a
    loan.    A statement of this nature detracts from the
    overall report and leads the reader to think that the
    report writer or the individuals they interviewed do not
    know what the real world is about.

    I would recommend that the statement be rewritten to
    reflect that there are mixed feelings on packagers and
    that one should insist on good loan packagers no matter
    who prepares the paperwork.

o   Page 1 of Background, paragraph l....make appropriate
    adjustments to guaranty rates.  Third sentence should
    read..."The guaranty amount is generally limited to
    $750,000 except for Delta, International Trade and
    Pollution Control loans."

o   Page 1, paragraph 2, at the end of the 3rd sentence we
    recommend the following be       added..."without SBA's
    approval, although SBA does review PLP loans for
    eligibility prior to issuing a loan number." You may
    want to use 1996 figures in this paragraph which are, 21%
    of the numbers and 39% of the dollars.

o   Page 1, paragraph 4, rather than use authority numbers
    for 1996 we recommend you use actual approval numbers.
    Authority figures do not mean very much when an Agency
    does not use the money.

o   The report uses the terms "non-depository lenders and
    SBLCs interchangeably, which is incorrect. It should be
    made clear that there are 14 SBLCs out of 8,000 lenders.

o   Page 7, section 3, first paragraph...recommend that you
    insert the word "interviewed" after the word "lenders".
    Since the sample of lenders were hand picked rather than
    a controlled sample, I have a concern that the
    individuals that were interviewed may not reflect the
    views of most lenders, even lenders with whom we have an
    excellent track record. For this reason, I request that
    the following be inserted:

    "The AA/FA believes that packagers serve a worthwhile
    purpose in serving small business concerns. The quality
    of any service being provided must be monitored not only
    by the Agency but also by the lending industry to make
    sure that the small business community is being given
    quality service.       This holds true for attorney


                          26
         representation,     accounting    expertise,     lender's
         services,or any other professional service being given in
         conjunction with an SBA application."

   o     Page 8, section 5, second paragraph. The Agency does not
         allow up-front agreements to release collateral.    This
         certainly should not be included in a "best practices"
         report.    When one pledges collateral, it is pledged
         period.

   o     Page 9, first paragraph. This might make one to assume
         that SBA did not require equity injection in a loan,
         which we most definitely do. Taking collateral instead
         of equity injection is a poor practice rather than a best
         practice.

   o     Page 9, second paragraph, last sentence. Although in the
         commercial industry, collateral is very important, our
         legislation states the following:

         "All loans made under this subsection shall be of such
         sound value or so secured as reasonably to assure
         repayment...". In other words, if the Agency or lender
         believes that the loan can be repaid from the earnings of
         the business, collateral is not an issue. This lender is
         confusing commercial practice with the Law under which
         SBA operates. For SBA purposes, best practices as seen
         in the commercial market may not be the best practices in
         carrying out the      intent   of   Congress    and   the
         Administration.

   o     Page 16, last paragraph. We would ask that at the end of
         the last sentence the following be inserted to better
         reflect what the program office is currently doing to
         assist in improving some of the direction to lenders and
         field offices.

         "OFA   is also finalizing new standard operating
         procedures, (SOPs). In its recent training to SBA field
         staff and lenders on the program,       OFA stressed the
         critical need for uniform adherence to regulation and SOP
         requirements to ensure national consistency in program
         implementation."

Sorry that it took me so long in getting this to you.   Thank you
for the opportunity to comment.




                               27
                                                                          APPENDIX E


    OIG RESPONSE TO OFFICE OF FINANCIAL ASSISTANCE COMMENTS


The Associate Administrator for Financial Assistance (AA/FA) made a number of technical
comments, many of which have been incorporated into the report.

Based on some of his other comments, however, it appears there may have been some
misunderstanding as to what the inspection sought to accomplish. The specific objective
was to identify the practices of some of SBA’s best Section 7(a) lenders--lenders selected
with the help of Office of Financial Assistance (OFA) and district office officials--so that
other 7(a) lenders might replicate and improve their practices and, conversely, so that SBA
could identify lenders likely to pose a higher risk of loan defaults. The Office of Inspector
General’s (OIG) larger purpose was to help the 7(a) program to minimize its loan losses,
saving taxpayers money and stretching limited SBA resources to help as many credit-
worthy small businesses as possible. The inspection report emphasized that the practices
were not an exhaustive list of effective practices and that its conclusions could not be
projected to all 7(a) lenders. The OIG believes, however, that the practices are a useful
guide for SBA lenders needing to develop internal procedures for SBA loans or improve
their management of credit.

Two best practices in particular disturbed the AA/FA. First, he took issue with the finding
that the successful lenders in our sample generally avoid the use of external loan packagers.
He argued that packagers serve a worthwhile purpose. In many cases this may be true, but
most of the lenders in our sample expressed misgivings about loan packagers, with the
major thrust of their assertions directed at full-time packagers as opposed to accountants
or others who only occasionally prepare loan applications. In October 1995 testimony
before Congress, the Deputy Inspector General stated that, in the 7(a) program alone,
criminal investigations had been initiated on 323 individuals involving loan applications
prepared by 19 packagers for a potential loss to the Government of as much as $125
million. SBA, too, was sufficiently concerned about fraudulent loan packagers to form a
committee in 1995 to examine the problem. In short, the inspection’s findings reflect the
comments of a diverse group of successful lenders who make small business loans in
agricultural, suburban, and urban--including inner city--areas. Given this group’s explicit
doubts about loan packagers, their concerns cannot in good faith be ignored.

                                             29
Second, the AA/FA challenged the finding that all the lenders in the sample required
borrowers to pledge personal and business assets whenever collateral is needed. The OIG
is not suggesting that collateral is a substitute for a borrower’s character or cash flow.
Nonetheless, the successful lenders in our sample believed that obtaining collateral was
important, if for no other reason than to impress on borrowers the seriousness of the loan
commitment. We do not view this practice as detrimental to carrying out the intent of
Congress and the Administration; like the lenders, we regard it as just one of a number of
considerations required in making a loan.

In summary, the OIG believes that the report’s findings, which were based on a sample of
demonstrably successful lenders, should be useful to SBA in its efforts to keep loan losses
to a minimum. Not all the best practices identified may be applicable to every lender or to
all circumstances, but encouraging less successful lenders to adopt some or all of these
practices would surely reduce losses and improve overall lender performance.




                                            30
                                             APPENDIX F


                     CONTRIBUTORS TO THIS REPORT



Phil Neel, Team Leader
Ned Nazzaro, Inspector
Holly Mudd, Inspector




                                 31
